eye E-Mail Address: 1115 H Street, N.E.
te briefs@wilsonepes.com Washington, D.C. 20002
WSO Web Site: Tel (202) 789-0096
exsces www.wilsonepes.com Fax (202) 842-4896
No. 20-827

UNITED STATES, Petitioner,
ve

ZAYN AL-ABIDIN MUHAMMAD HUSAYN, AKA ABU
ZUBAYDAH, ET AL., Respondents

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on August 20, 2021, three (3) copies of the BRIEF OF THE FLOYD
ABRAMS INSTITUTE FOR FREEDOM OF EXPRESSION, KNIGHT FIRST AMENDMENT
INSTITUTE AT COLUMBIA UNIVERSITY, CITIZENS FOR RESPONSIBILITY AND ETHICS
IN WASHINGTON, AND NATIONAL SECURITY ARCHIVE AS AMICI CURIAE IN SUPPORT
OF RESPONDENTS in the above-captioned case were served, as required by U.S. Supreme Court
Rule 29.5(c), on the following:

Counsel for Petitioner United States: Counsel for Respondenis Zayn al-Abidin
ELIZABETH B. PRELOGAR Muhammad usayn (aka Abu Zubaydah)
Acting Solicitor General and Joseph Margulies:

UNITED STATES DEPARTMENT OF JUSTICE DAVID FRANKLIN KLEIN

950 Pennsylvania Avenue, NW PILLSBURY WINTHROP SHAW PITTMAN LLP
Washington, DC 20530-0001 1200 17th Street NW

202-514-2217 Washington, DC 20036

202-663-8000

Counsel for Respondents James Elmer
Mitchell and John Jessen:

CHRISTOPHER W. TOMPKINS
BETTIS, PATTERSON & MINES, P.S.
701 Pike Street, Suite 1400
Seattle, WA 98101

206-292-9988

The following email addresses have also been served electronically:
SupremeCtBriefs@USDOJ.gov

david. klein@pillsburylaw.com
ctompkins@bpmlaw.com
david.schulz@yale.edu AKS

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

this 20th day of August 2021.

   

 
  
    

COLIN CASEY HOGAN
NOTARY PUBLIC
District of Columbia
My commission expires April 14, 2022.
